December 2, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543

Re: Trump v. Sierra Club, No. 20-685

National Office
125 Broad Street,
18th Floor
New York, NY 10004
Tel: (212) 549-2644
Fax: (212) 549-2644
aclu.org
Susan N. Herman
President
Anthony D. Romero
Executive Director
Richard Zacks
Treasurer

Dear Mr. Harris,
I represent the Sierra Club and Southern Border Communities
Coalition and am writing to request a thirty-day extension of time in which
to file the opposition to certiorari in this case, which would extend the due
date to January 19, 2021. The opposition is currently due December 17,
2020. Previously scheduled litigation deadlines, as well as new challenges
resulting from the COVID-19 public health emergency and resulting
disruptions to professional and personal life, during the initial 30-day
response period would make it difficult for counsel to prepare the response
in this case.
Please let me know if you require any further information. Thank
you very much for your time and assistance.
Very truly yours,

Dror Ladin
cc: Jeffrey B. Wall, Counsel for Petitioner
Joshua A. Klein, Counsel for Respondent State of California

